Office of Material Loss Reviews
Report No. MLR-10-008


Material Loss Review of Great Basin Bank
of Nevada, Elko, Nevada




                                  December 2009
                                      Executive Summary

                                      Material Loss Review of Great Basin Bank of
                                      Nevada, Elko, Nevada
                                                                                      Report No. MLR-10-008
                                                                                             December 2009

Why We Did The Audit
On April 17, 2009, the Nevada Financial Institution Division (NFID) closed Great Basin Bank (Great
Basin) and named the FDIC as receiver. On June 5, 2009, the FDIC notified the Office of Inspector
General (OIG) that Great Basin’s total assets at closing were $228.8 million and the estimated material
loss to the Deposit Insurance Fund (DIF) was $39.4 million. As required by section 38(k) of the Federal
Deposit Insurance (FDI) Act, the OIG conducted a material loss review of the failure of Great Basin.

The audit objectives were to (1) determine the causes of Great Basin’s failure and the resulting material
loss to the DIF and (2) evaluate the FDIC’s supervision of Great Basin, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
Great Basin was a state-chartered nonmember bank, established by the NFID and insured by the FDIC on
July 29, 1993. The institution was a full-service community bank with four branch offices and was
wholly owned by a one-bank holding company. Great Basin had no subsidiaries or affiliates. The
institution’s loan portfolio included, but was not limited to, out-of-territory purchased participation loans
from areas that experienced a significant economic downturn starting in 2007, and a concentration in
commercial real estate (CRE) loans. Great Basin also invested in securities including, but not limited to,
Federal National Mortgage Association (FNMA) securities.

Audit Results
Causes of Failure and Material Loss

Great Basin failed because its Board did not ensure that bank management identified, measured,
monitored, and controlled the risk associated with the institution’s lending activities. Specifically, Great
Basin’s Board and management failed to adequately assess the risk associated with expanding the loan
portfolio through purchases of out-of-territory participation loans, particularly from 2006 through 2008.
The bank also lacked effective risk management controls for its CRE loan portfolio. Additionally, poor
risk management practices negatively impacted the bank’s ability to effectively manage operations in a
declining economic environment.

The weaknesses in Great Basin’s loan portfolio were exacerbated by a downturn in the bank’s market area
and out-of-territory locations. Declining earnings, resulting from high provision expenses for
deterioration in the loan portfolio, severely eroded the bank’s capital. Additionally, losses associated with
FNMA securities contributed to inadequate capital levels and reduced earnings. The NFID closed Great
Basin due to the bank’s Significantly Undercapitalized position.


The FDIC’s Supervision of Great Basin

The FDIC and NFID provided ongoing supervision of Great Basin and performed six on-site
examinations from June 2002 to January 2009. The FDIC also performed offsite monitoring in 2008 that
resulted in a downgrade to the institution’s ratings. The joint examinations included concerns and
recommendations regarding weak risk management practices related to purchased participation loans and
CRE loans, and loan underwriting and credit administration deficiencies. Examiners also reported



                                  To view the full report, go to www.fdicig.gov
   Executive Summary                  Material Loss Review of Great Basin Bank of
                                      Nevada, Elko, Nevada
                                                                                      Report No. MLR-10-008
                                                                                             December 2009

apparent violations of law and contraventions of policy associated with the institution’s lending practices.
During the February 2008 examination, the FDIC and NFID recognized the significance of the bank’s
increased risk profile due to the increase in purchased participation loans and made several
recommendations to improve the bank’s monitoring and due diligence practices. Beginning in July 2003,
and as the institution’s condition deteriorated in February 2008 and January 2009, the FDIC and NFID
took enforcement actions to address identified deficiencies.

The FDIC’s supervisory and enforcement actions issued in July 2008 and April 2009 addressed most of
the deficiencies at the bank. However, the action taken in July 2008 did not require Great Basin to obtain
qualified management, a significant factor in the poor oversight of the purchased participation loan
portfolio. Further, significant deterioration in Great Basin’s asset quality had occurred before these
actions were taken, and the effects of poor risk management practices, purchased participation loans, and
the CRE concentration had significantly impacted the institution’s financial condition, in general, and
loan portfolio, in particular. Further, although the FDIC and NFID took action after the February 2008
examination to address the bank’s deficiencies, bank management continued to purchase participation
loans, increasing both the bank’s risk profile and the probability, and ultimate realization, of significant
losses to the institution.

With respect to PCA, we concluded that the FDIC properly implemented applicable PCA provisions of
section 38 based on the supervisory actions taken for Great Basin.

Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On December 2, 2009, the Director, Division of Supervision and
Consumer Protection (DSC), provided a written response to the draft report.

DSC reiterated the OIG’s conclusions regarding the causes of Great Basin’s failure. DSC also stated that
Great Basin’s Board and management were expected to identify and control the third-party risks arising
from the relationships for its purchased participation loan portfolio. With regard to the FDIC’s
supervision of Great Basin, DSC stated that examiners identified the risks associated with the purchased
participations in 2008 as weaknesses in the bank’s loan underwriting and credit administration became
apparent. DSC further stated that the FDIC has issued guidance which outlines the basic elements for
effective third-party risk management and for the performance of due diligence on purchased loan
participations.




                                  To view the full report, go to www.fdicig.gov
                                    Contents
                                                                             Page
Background                                                                     2

Causes of Failure and Material Loss                                            3
 Board of Directors and Bank Management Oversight of Operations                3
 Asset Growth Through Purchased Participation Loans Between 2006 and           5
    2008
 CRE Loan Concentration                                                        8
 Adversely Classified Assets and Allowance for Loan and Lease Losses           9
 Investments in FNMA Securities                                               10

The FDIC’s Supervision of Great Basin                                         11
  Supervisory History                                                         11
  Consideration of Risk Presented by Great Basin’s Purchased Participation    13
    Loans
  Supervisory Response to Great Basin’s CRE Loan Concentration                15
  Sufficiency and Timeliness of Supervisory Actions                           16
  Implementation of PCA                                                       17

Corporation Comments                                                          18

Appendices
   1.   Objectives, Scope, and Methodology                                    19
   2.   Glossary of Terms                                                     22
   3.   Acronyms                                                              24
   4.   Corporation Comments                                                  25

Tables
   1. Financial Condition of Great Basin                                       2
   2. Great Basin’s Percentage of CRE Loans to Total Loans Compared to         8
        Peers from December 2003 to December 2008
   3. Great Basin’s Adversely Classified Items and ALLL                       10
   4. Examination History of Great Basin from June 2002 to January 2009       12
   5. Great Basin’s Capital Ratios                                            17

Figures
   1. Great Basin’s Asset Growth Rate Percentages Compared to Peers            6
   2. Great Basin’s Purchased Participation Loan Balances as of               14
       November 30, 2008
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     December 4, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews



SUBJECT:                                  Material Loss Review of Great Basin Bank of Nevada,
                                          Elko, Nevada (Report No. MLR-10-008)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Great Basin
Bank of Nevada, (Great Basin), Elko, Nevada. On April 17, 2009, the Nevada Financial
Institution Division (NFID) closed the institution and named the FDIC as receiver. On
June 5, 2009, the FDIC notified the OIG that Great Basin’s total assets at closing were
$228.8 million and the estimated material loss to the Deposit Insurance Fund (DIF) was
$39.4 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of




1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations, and (2) issues related guidance to institutions and examiners.
the institution, including implementation of the PCA provisions of section 38 of the
FDI Act. Appendix 1 contains details on our objectives, scope, and methodology.
Appendix 2 contains a glossary of key terms and Appendix 3 contains a list of acronyms.
Appendix 4 contains the Corporation’s comments on this report.

This report presents the FDIC OIG’s analysis of Great Basin’s failure and the FDIC’s
efforts to ensure that its management operated the bank in a safe and sound manner. We
are not making recommendations. Instead, as major causes, trends, and common
characteristics of financial institution failures are identified in our reviews, we will
communicate those to management for its consideration. As resources allow, we may
also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
program and make recommendations, as warranted.


Background
Great Basin was a state-chartered nonmember bank, established by the NFID and insured
by the FDIC effective July 29, 1993. Great Basin was a full-service community bank,
and provided traditional banking services at a main office in Elko, Nevada and four
branches in Elko, Winnemucca, Fallon, and Spring Creek, Nevada. The institution’s loan
portfolio included, but was not limited to, out-of-territory purchased participation loans
and a concentration in commercial real estate (CRE) loans. Great Basin also invested in
securities including, but not limited to, Federal National Mortgage Association (FNMA)
securities.

The bank was wholly owned by a one-bank holding company, Great Basin Financial
Corporation, and had no other subsidiaries or affiliates. Great Basin’s stock was not
publicly traded. The bank’s Board of Directors (Board) collectively owned or controlled
approximately 24 percent of the outstanding shares of the holding company, and the bank
president held a 10-percent interest as the principal shareholder of the parent company.

Table 1 summarizes Great Basin’s financial condition as of December 2008, and for the
5 preceding calendar years.

   Table 1: Financial Condition of Great Basin
      Financial Measure          Dec-08      Dec-07     Dec-06      Dec-05     Dec-04     Dec-03
   Total Assets ($000s)      $264,325 $253,612          $213,595    $184,911   $155,851   $133,068
   Total Loans ($000s)       $141,951 $146,248          $145,471    $118,050    $94,442    $81,206
   Total Deposits ($000s)    $241,262 $207,361          $196,688    $165,561   $130,254   $115,523
   Net Income (Loss) ($000s) ($11,614)  $2,122             $1,682     $1,391     $1,352     $1,304
   Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROE) for Great
   Basin.




                                                2
Causes of Failure and Material Loss
Great Basin failed because its Board did not ensure that bank management identified,
measured, monitored, and controlled the risk associated with the institution’s lending
activities. Specifically, Great Basin’s Board and management failed to adequately assess
the risk associated with expanding the loan portfolio through purchases of out-of-territory
participation loans,3 particularly from 2006 through 2008. The bank also lacked effective
risk management controls for its CRE loan portfolio. Additionally, poor risk
management practices negatively impacted the bank’s ability to effectively manage
operations in a declining economic environment.

The weaknesses in Great Basin’s loan portfolio were exacerbated by a downturn in the
bank’s market area and out-of-territory locations. Declining earnings, resulting from
high provision expenses for deterioration in the loan portfolio, severely eroded the bank’s
capital. Additionally, losses associated with FNMA securities contributed to inadequate
capital levels and reduced earnings. The NFID closed Great Basin due to the bank’s
Significantly Undercapitalized position.


Board of Directors and Bank Management Oversight of Operations

Great Basin’s Board and management failed to identify, measure, monitor, and control
the risks related to the bank’s operations. In addition, the Board did not ensure that the
bank complied with laws, regulations, and interagency policy and implemented
recommendations made by the bank’s auditors and FDIC and NFID examiners in a
timely and effective manner.

Identifying, Measuring, Monitoring, and Controlling Risks

According to the DSC Risk Management Manual of Examination Policies (Examination
Manual), the quality of management is probably the single most important element in the
successful operation of a bank. The Examination Manual also states that it is extremely
important for bank management to be aware of their responsibilities and to discharge
those responsibilities in a manner that will ensure the stability and soundness of the
institution. According to the manual, it is not necessary for the Board to be actively
involved in day-to-day operations of the bank. However, the Board must provide clear
guidance regarding acceptable risk exposure levels and ensure that appropriate policies,
procedures, and practices have been established that translate the Board’s goals,
objectives, and risk limits into prudent operating standards.

At the joint FDIC and NFID February 2008 and January 2009 examinations,4 examiners
identified several areas in which Great Basin’s Board and management had exhibited

3
  A loan participation is a sharing or selling of ownership interests in a loan between two or more financial
institutions.
4
  Unless otherwise noted in this report, references to examination dates will refer to the month and year of
the examination start dates.

                                                      3
poor risk management practices that contributed to the unsatisfactory financial condition
of the institution. Regarding risk management, the examinations concluded that the
Board and management:

       had been slow to recognize and address identified problem areas, including
        problem loans and associated losses;
       had not maintained an adequately funded allowance for loan and lease losses
        (ALLL); and
       needed to increase earnings and capital and improve liquidity management.

While examiners had previously noted the need for improvement in virtually all areas of
bank operations, the joint FDIC and NFID January 2009 examination report concluded
that (1) Great Basin management’s decision to enter in complex out-of-area participation
loans was the key reason the bank was near failure and (2) management was critically
deficient and that Board performance and oversight needed significant improvement.

Apparent Violations and Contraventions of Policy

According to the Examination Manual, it is important for the bank’s Board to ensure that
bank management is cognizant of applicable laws and regulations, develop a system to
effect and monitor compliance, and, when violations do occur, make correction as
quickly as possible. Examiners cited apparent violations and contraventions in four out
of five examinations of Great Basin from February 2005 to January 2009, involving:

           appraisals,
           real estate lending,
           asset quality,
           loan underwriting and credit administration, and
           other unsafe and unsound practices.

Further, citing the apparent violation of FDIC Rules and Regulations Part 337 – Unsafe
and Unsound Banking Practices during the bank’s January 2009 examination, examiners
concluded that Great Basin was near failure due to bank management’s past decisions
and actions or inactions.

Implementation of Auditor and Examiner Recommendations

Prior to Great Basin’s failure, the bank’s auditors and FDIC and NFID examiners
expressed concerns about the institution’s risk management practices and made
recommendations for improvement. However, the actions taken by Great Basin’s Board
and management were not timely or effective to adequately address those concerns. Our
review of external auditor and examiner recommendations and FDIC examination reports
for Great Basin indicated a well-documented pattern of recommendations made but lack
of adequate attention by the bank to implement them. Specifically, Great Basin’s
external auditors, the FDIC, and NFID identified the need for the bank to improve loan
underwriting and credit administration practices for participation loans and the CRE
concentration. From December 2006 through September 2008, Great Basin’s external

                                            4
auditors made recommendations to improve the approval and monitoring of purchased
participations and CRE projects. The FDIC and NFID examiners also identified
numerous credit administration and loan underwriting deficiencies as early as the July
2003 examination, and in subsequent examinations, including those conducted in
February 2008 and January 2009.

Examiners concluded in the February 2008 and January 2009 examination reports that
bank management had failed to take adequate and timely action to sufficiently address
auditor and examiner concerns. Specifically, at the joint FDIC and NFID February 2008
examination, examiners determined that the bank’s credit administration practices for
purchased participation loans were especially poor, identifying significant deficiencies in
the bank’s monitoring and due diligence practices for these loans and making
recommendations for improvement. However, at the January 2009 examination,
examiners found that Great Basin’s loan underwriting and credit administration practices
were still in need of improvement, and bank management’s actions to address previously
reported deficiencies were either not implemented in a timely manner or not effective.


Asset Growth Through Purchased Participation Loans Between 2006 and 2008

Great Basin’s business strategy and lending activities involved purchased participation
and CRE loans that, when combined, increased the size and risk of the bank’s loan
portfolio. According to the FDIC’s February 2008 examination report, Great Basin’s
Board and management purchased out-of-territory participation loans to diversify the
bank’s loan portfolio. The geographic markets where the purchased participation loans
were originated experienced significant economic downturns and, in turn, considerably
impacted Great Basin’s asset quality and financial condition. As discussed earlier, Great
Basin’s Board and management failed to develop and implement adequate risk
management controls to address the risk associated with the significant growth in those
loans.

Figure 1 shows Great Basin’s asset growth rates for December 2003 through March 2009,
compared to the bank’s peer group. As indicated, Great Basin’s asset growth rate
consistently and significantly exceeded the bank’s peer group through December 2007.




                                             5
        Figure 1: Great Basin's Asset Growth Rate Percentages Compared
                  to Peers

                      30

                      25

                      20

                      15

                      10

                       5

                       0

                      -5

                     -10

                     -15
                           Dec-03    Dec-04    Dec-05       Dec-06   Dec-07   Dec-08   Mar-09

             Great Basin    25.15     17.12     18.65       15.51    18.73     4.22     -9.56
             Peer             5.7      4.52      6.44        6.48     6.34     6.9        6
                                                     UBPR Period

        Source: UBPRs for Great Basin.

Great Basin’s asset growth between 2003 and 2005 consisted of growth in virtually all
loan categories. However, Great Basin purchases of participation loans, which started as
early as 2001,5 significantly increased between 2006 and 2008, with Great Basin
eventually purchasing approximately $33.2 million6 in participation loans, resulting in a
significant increase in the bank’s risk profile. Although the remaining balances for the
purchased participation loans totaled only $25.6 million, or about 16 percent, of the
bank’s loan portfolio as of November 30, 2008 (as shown in Figure 2 in the
Consideration of Risk Presented by Great Basin’s Participation Loans section of this
report), the loans presented significant risk to Great Basin, which the bank’s Board and
management failed to adequately assess and control.

Managing Risk Associated with Purchased Participation Loans

Great Basin’s decision to purchase participation loans without implementing adequate
risk management controls, including the assessment of third-party risk, significantly
increased the bank’s risk profile and exposure to losses. The participation loans consisted
of out-of-territory CRE and unsecured loans, with the greatest number of the purchased

5
  Information on the amount of participations that Great Basin purchased in 2001 was not available in the
FDIC’s examination records.
6
  Data regarding the original balances of Great Basin’s purchased participation loans totaling $33.2 million
as of March 31, 2009, is based on bank records provided to the OIG by the FDIC Division of Resolutions
and Receiverships.

                                                        6
participation loans in CRE. Some of the complex, high-risk participation loans included
mezzanine7 financing in which Great Basin held junior lien positions and interest rates
well above average prime rates.8 The risk presented by the purchased participation loans,
totaling $25.6 million as of November 30, 2008, became apparent at the January 2009
examination, when it was determined that the participation loans represented 45 percent
of the bank’s adversely classified loans, of which 22 percent were CRE purchased
participation loans, and 85 percent of the loans classified as “Loss”.

An institution’s Board and senior management are
                                                                 Examiners sometimes find that a participation loan
ultimately responsible for managing activities                   does not meet the financial institution’s established
conducted through third-party relationships, and                 underwriting standards, too often with predictable
identifying and controlling the risks arising from               results. Institutions often “buy” the types of loans
such relationships, to the same extent as if the                 they cannot originate in their normal trade area;
activity were handled within the institution. A                  however, those institutions may lack lenders with
                                                                 sufficient expertise to analyze the participation
third-party relationship should be considered                    loan.
significant for various reasons including, but not
limited to, whether the (1) relationship has a                   Institutions entering into participation
material effect on the institution’s revenues or                 arrangements can avoid common pitfalls and
expenses; (2) third-party performs critical                      mitigate third-party risks by, among other things,
functions; or (3) third-party poses risks that could
significantly affect earnings or capital.                                 Conducting a thorough risk assessment to
                                                                           ensure that the proposed relationship is
                                                                           consistent with the institution’s strategic
Great Basin’s purchase of participation loans from                         plan and overall business strategy;
third-party brokers materially affected the bank’s                        Conducting thorough due diligence to
revenue, earnings, and capital, and the brokers                            focus on the third party’s financial
performed critical functions related to loan                               condition, relevant experience, reputation,
                                                                           and the scope and effectiveness of its
underwriting and credit administration. Great                              operations and controls;
Basin purchased participation loans from several                          Reviewing applicable accounting
entities, including finance companies, investment                          guidance to determine if the participation
banks, and FDIC-insured nonmember and                                      agreement meets the criteria for a loan
national banks. The borrowers and the properties                           sale or a secured borrowing. Key issues to
                                                                           consider include rights to repurchase and
that served as collateral for the loans were located                       recourse arrangements; and
in various parts of the country, including Georgia,                       Developing a comprehensive monitoring
Nevada, California, Florida, Louisiana, Kentucky,                          program.
and Minnesota.
                                                                 Source: Supervisory Insights, Summer 2007.
Great Basin’s Board and management did not
implement adequate risk management controls,
including conducting due diligence, performing independent credit analyses, or
considering the borrower’s ability to repay and the sufficiency of the underlying
collateral. Also, Great Basin’s loan policy did not sufficiently address purchased
participation loans and the risk associated with the third-party relationships. Further,
some of the purchased participation loans had questionable collateral values from the

7
 Mezzanine financing is extension of credit on a subordinated basis that is neither equity nor senior debt.
8
 Prime Rate is the base rate on corporate loans posted by at least 75 percent of the nation’s 30 largest
banks.

                                                     7
beginning, and some loan projects had problems early on that potentially impacted the
feasibility of the entire project. As discussed previously, the February 2008 examination
concluded that credit administration practices for purchased participation loans needed
significant improvement; however, bank management continued to increase the
purchased participation loan portfolio after the joint FDIC and NFID February 2008
examination. Finally, examiners determined at the January 2009 examination that loan
administration practices were critically deficient for purchased participation loans,
indicating that bank management had failed to adequately and timely address examiner
concerns.


CRE Loan Concentration

Great Basin’s total CRE loans ranged from about 218 percent of Tier 1 Capital at the
February 2008 examination to 457 percent at the October 2006 examination. In addition,
as shown in Table 2, Great Basin’s CRE portfolio, as a percent of total loans,
significantly exceeded the bank’s peer group9 averages from December 2003 through
December 2008.

    Table 2: Great Basin’s Percentage of CRE Loans to Total Loans Compared
    to Peers from December 2003 to December 2008
                 Period                                        CRE/Total Loans
                 Ended                           Great Basin                    Peer Group
                                                     Percentages include owner-occupied CRE
                 Dec-03                             44.46                           24.54
                 Dec-04                             41.18                           26.05
                 Dec-05                             44.88                           30.17
                 Dec-06                             46.93                           31.02
                 Dec-07                             44.37                           31.89
                 Dec-08                             47.72                           31.34
    Source: UBPRs for Great Basin.



According to Financial Institution Letter (FIL)104-2006, entitled, Concentrations in
Commercial Real Estate, Sound Risk Management Practices, dated December 12, 2006,
concentrations can pose substantial potential risks and can inflict large losses on
institutions. Although the guidance does not specifically limit a bank’s CRE lending, it
provides supervisory criteria for identifying financial institutions that may have
potentially significant concentration in CRE loans, warranting greater supervisory
scrutiny. Specifically, FIL-104-2006 provides guidance as to when greater supervisory
scrutiny may be appropriate for financial institutions and describes a risk management
framework that institutions should implement to effectively identify, measure, monitor,

9
 Commercial banks are assigned to one of 25 peer groups based on asset size, number of branches, and
whether the bank is located in a metropolitan or non-metropolitan area. Great Basin’s peer group was that
of all insured commercial banks with assets between $100 million and $300 million in a non-metropolitan
area with three or more full service offices.

                                                    8
and control CRE concentration risk. That framework includes effective oversight by
bank management, including the Board and senior executives, portfolio stress testing and
sensitivity analysis, sound loan underwriting and administration, and portfolio
management practices.

At the January 2009 examination, when owner-occupied CRE is excluded, Great Basin’s
CRE loans represented about 579 percent of Total Capital, exceeding the 300 percent
parameter established in the 2006 guidance warranting greater supervisory scrutiny. The
increase in the CRE loans to Total Capital at the January 2009 examination was due, in
part, to the significant decrease in the bank’s capital position.

Inadequate Risk Management Practices for CRE Loans

Great Basin failed to establish and implement adequate controls to effectively address the
bank’s CRE loans. Examiners reported deficiencies in Great Basin’s risk management
practices for the CRE loans as early as July 2003. Recommendations related to the
bank’s inadequate CRE risk management practices were also noted in the examinations
conducted in February 2005 through February 2008. Those recommendations were
related, but not limited to, the following issues:

        defining and tracking speculative lending at a level commensurate with CRE
         lending activities,
        establishing adequate procedures to stress test individual projects and the total
         CRE portfolio,
        establishing guidelines for contingency planning to reduce concentrations in
         excess of policy limits and to adjust CRE limits during changing markets,
        including the December 12, 2006 CRE guidance in the bank’s concentration
         policy,
        measuring all concentrations relative to Tier 1 Capital, and
        improving controls related to the use of interest reserves.

Although examiners for the January 2009 examination report concluded that Great Basin
had made some improvements relative to CRE monitoring, numerous repeat deficiencies
and recommendations were identified, and additional enhancements for concentration
monitoring and reporting were necessary.


Adversely Classified Assets and Allowance for Loan and Lease Losses

As management began to recognize the deterioration in the bank’s loan portfolio and as
adverse classifications increased, additional provisions to the ALLL were required. Asset
quality deteriorated to less than satisfactory with a rating10 of “3” at the joint February
10
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.

                                                   9
2008 examination. Adversely classified items as a percent of Tier 1 Capital plus ALLL
totaled 30.08 percent. Further, during the February 2008 examination, purchased
participation loans represented 99 percent of the $5.9 million of adversely classified
items. Examiners concluded that a provision expense of $650,000 to $700,000 was
needed to replenish the ALLL after adjusting for the loss classification identified at the
February 2008 examination. Additionally, weaknesses identified in credit administration
and monitoring of the participation loans at this examination adversely affected the
bank’s compliance with ALLL requirements. Bank management agreed to implement the
ALLL methodology recommendations and made additional provisions to the ALLL.

Asset quality was downgraded to a rating of “5” at the January 2009 examination,
indicating critically deficient asset quality or credit administration practices that
presented an imminent threat to the institution’s viability. Examiners concluded that the
ALLL was underfunded by $5.0 million due to the identification of additional loan
downgrades. Adversely classified items represented 199.5 percent of Tier 1 Capital and
ALLL. Loss classifications, totaling $2.8 million, represented a 276 percent increase
from the bank’s prior examination. Table 3 shows the adversely classified items and
ALLL for Great Basin for the July 2003 through January 2009 examinations.

 Table 3: Great Basin’s Adversely Classified Items and ALLL
                                                  Asset Quality
                                            (Dollars in Thousands)
                          Total                                             ALLL
                                           Adversely Classified                            Increase in ALLL
 Examination            Adversely                                         Computed
                                          Items as a Percent of                              Computed by
    Date                Classified                                         by Great
                                         Tier 1 Capital plus ALLL                             Examiners
                          Items                                             Basin
 July 2003                $4,281                   44.26%                   $1,360                 0
 February 2005            $1,090                    8.48%                   $1,208                 0
 October 2006             $2,312                   14.59%                   $1,565                 0
 February 2008            $5,950                   30.08%                   $2,151               $700
 January 2009             $24,519                  199.47%                  $6,620              $5,000
 Source: ROEs and UBPRs for Great Basin.

Purchased participations and CRE loans made up a significant portion of the total
adversely classified loans at the January 2009 examination—purchased participations,
including purchased CRE participation loans, represented 45 percent of total classified
loans11 and CRE loans represented 37 percent.12 In addition, purchased participations
represented 85 percent of the loans classified as “Loss” at the January 2009 examination.


Investments in FNMA Securities

Great Basin experienced losses associated with its FNMA securities in 2008 that
contributed to the bank’s depleted capital and reduced the bank’s earnings. In 2008, the
11
     Includes CRE-purchased participations and other types of purchased participation loans.
12
     Includes non-purchased participation CRE loans.

                                                      10
FDIC initiated a process to determine the extent to which FDIC-supervised banks were
potentially exposed to FNMA and/or Federal Home Loan Mortgage Corporation
preferred or common stock. On September 24, 2008, Great Basin management informed
the FDIC that the bank needed to write-down its FNMA preferred stock by over
$2 million at the end of September 2008, and that this would likely result in a
reclassification of the bank’s PCA category to Adequately Capitalized. In fact, the
bank’s $5.2 million in net losses as of September 30, 2008, which took into account the
bank’s losses in FNMA preferred stock, lowered the bank’s capital category to
Undercapitalized. On December 31, 2008, Great Basin reported $2.1 million in losses in
FNMA preferred stock and $739,000 losses in mutual funds.


The FDIC’s Supervision of Great Basin
The FDIC and NFID provided ongoing supervision of Great Basin and performed six on-
site examinations from June 2002 to January 2009. The FDIC also performed offsite
monitoring in 2008 that resulted in a downgrade to the institution’s ratings. The joint
examinations included concerns and recommendations regarding weak risk management
practices related to purchased participation loans and CRE loans, and loan underwriting
and credit administration deficiencies. Examiners also reported apparent violations of
law and contraventions of policy associated with the institution’s lending practices.
During the February 2008 examination, the FDIC and NFID recognized the significance
of the bank’s increased risk profile due to the increase in purchased participation loans
and made several recommendations to improve the bank’s monitoring and due diligence
practices. Beginning in July 2003, and as the institution’s condition deteriorated in
February 2008 and January 2009, the FDIC and NFID took enforcement actions to
address identified deficiencies.


Supervisory History

The FDIC and NFID performed joint examinations of Great Basin in June 2002, July
2003, October 2006, February 2008, and January 2009. The FDIC performed an
independent on-site examination of Great Basin in February 2005 and off-site monitoring
in December 2008. Table 4 summarizes key information pertaining to examinations
ending with the Cease and Desist Order (C&D) issued as a result of the January 2009
examination.




                                           11
Table 4: Examination History of Great Basin From June 2002 to January 2009
                                                         Supervisory
 Examination      Examination                                              Supervisory/Enforcement
                                        Agency             Ratings
  Start Date       as of Date                                                       Action
                                                           (UFIRS)
                                                                             Bank Board Resolution (BBR)
   06/17/2002        3/31/2002        FDIC and NFID         332322/3
                                                                                (adopted July 18, 2002)

   07/21/2003        03/31/2003       FDIC and NFID         232222/2                    BBR

   02/28/2005        12/31/2004           FDIC              222222/2               BBR terminated
   10/02/2006        06/30/2006       FDIC and NFID         222222/2                     None
                                                                            Memorandum of Understanding
   02/25/2008        12/31/2007       FDIC and NFID         333222/3                    (MOU)
                                                                               (effective July 31, 2008)
                                                                                Continuation of MOU
   12/9/2008*        09/30/2008           FDIC              544433/4
                                                                               (effective July 31, 2008)
                                                                                         C&D
   01/12/2009        12/31/2008       FDIC and NFID         555544/5
                                                                              (effective April 15, 2009)
  Source: ROEs for Great Basin
* The FDIC conducted offsite monitoring during December 2008, determined that the bank’s financial
condition had substantially deteriorated, and downgraded the bank’s CAMELS ratings.


A BBR, issued July 18, 2002, sought to address examiner concerns associated with asset
quality during the June 2002 joint examination of the bank. In July 2003, Great Basin
received a composite “2” rating, indicating that the institution’s overall condition was
satisfactory. However, asset quality remained a significant regulatory concern at the July
2003 examination, resulting in a component rating of “3”. The July 2003 ROE reported
that additional attention to improve asset quality and achieve sustainable earnings was
warranted. Great Basin received composite “2” ratings in February 2005 and October
2006, and, at the February 2005 examination, examiners concluded that bank
management had substantially satisfied the BBR provisions and terminated the action.

The February 2008 joint examination revealed that the overall condition of the institution
was less than satisfactory due to asset quality deterioration combined with credit
administration weaknesses, specifically in monitoring purchased participation loans and
the bank’s CRE concentration. The FDIC and NFID entered into an MOU based on the
results of the examination which required Great Basin to:

       reduce the bank’s risk exposure in adversely classified and special mention loans;
       improve the internal loan review program;
       improve information regarding the overall quality of the bank’s loan portfolio,
        including participation loans;
       improve credit underwriting and administration activities;
       develop a plan to reduce loan concentration risk;
       improve the methodology for determining the adequacy of the ALLL; and
       implement a strategic plan that included a capital plan for improving capital
        levels.

On December 16, 2008, the FDIC completed an offsite review of the institution’s
September 30, 2008 Report of Condition and Income (Call Report) data, and noted that

                                                   12
the bank’s financial condition had deteriorated significantly as a result of asset quality
problems centered in CRE loans and securities since the February 2008 examination. As
a result, the FDIC issued an interim rating change on December 16, 2008 and
downgraded the bank’s ratings from 333222/3 to 544433/4.

Further, given the change in Great Basin’s capital category to Undercapitalized as of
September 30, 2008, the next examination, which was originally scheduled for February
2009, was accelerated to January 2009. This examination determined that Great Basin’s
overall financial condition was unsatisfactory and its future viability threatened unless the
bank addressed its poor risk management practices immediately and improved its capital
position.

As a result of the January 2009 examination, the FDIC and NFID proposed a C&D due to
significant weaknesses involving Board oversight and management supervision, asset
quality, earnings, and liquidity and the bank’s failure to implement prior
recommendations. Great Basin stipulated to the C&D on April 9, 2009 and the FDIC
issued the order effective April 15, 2009. The C&D required Great Basin to, among
other things:

      obtain and retain qualified management; and
      submit written plans to
          o increase Board participation,
          o increase Tier 1 Capital by no less than 12 percent and maintain it at
               9 percent or above,
          o eliminate all assets classified as Loss and one-half of assets classified as
               Doubtful,
          o reduce the institution’s CRE loan concentration, and
          o eliminate and/or correct all violations of law.


On April 17, 2009, the NFID closed Great Basin due to its severely deteriorated financial
condition and the bank’s inability to raise additional capital, and named the FDIC as
receiver.


Consideration of Risk Presented by Great Basin’s Purchased Participation Loans

Great Basin’s growth in purchased participation loans resulted in elevated supervisory
concern during the February 2008 examination with the FDIC making numerous
recommendations to the Board and management to address deficiencies in Great Basin’s
credit administration practices for those loans. Similar concerns and recommendations
were also noted at the January 2009 examination.

As discussed previously, Great Basin had purchased participation loans since at least
2001. Figure 2 illustrates the cumulative amount of the balances for Great Basin’s




                                             13
purchased participation loans based on the year that Great Basin purchased the loans, as
of November 30, 2008.13

          Figure 2: Great Basin’s Purchased Participation Loan Balances as of
                    November 30, 2008


                                                                 30,000                                                      $25,618
              Purchased Participation Loans




                                                                 25,000
                                              Balances ($000s)




                                                                 20,000                                            $15,189

                                                                 15,000                                  $11,682

                                                                 10,000
                                                                                                $5,369

                                                                  5,000             $1,781
                                                                            $686

                                                                     0
                                                                          2002     2004        2005      2006      2007      2008




           Source: FDIC January 2009 examination work papers for Great Basin.

Examiners are responsible for evaluating and reporting the extent to which institutions
assess and mitigate third-party risk, such as the risk involved in relying on another
institution to properly underwrite and administer a loan in which an institution has a
participation interest. Specifically, the Examination Manual states that institutions that
purchase participation loans (1) must make a thorough, independent evaluation of the
transaction and the risks involved before committing any funds and (2) should apply the
same standards of prudence, credit assessment, approval criteria, and “in-house” limits
that would be employed if the purchasing organization were originating the loan.

The FDIC’s review of purchased participations during examinations conducted before
February 2008 was limited, due to the fact that those loans represented a small segment
of the bank’s loan portfolio when those examinations were conducted. During the pre-
examination planning for the February 2008 examination, Great Basin’s president
informed the FDIC that the purchased participation loans were the weakest segment of
the bank’s loan portfolio, and the bank’s external auditor informed the FDIC of concerns
related to the bank’s monitoring and oversight of the purchased participation loans and
the bank’s ALLL methodology for those credits. Consistent with that input, the
examination report reflected that examiners conducted a detailed review of purchased
participations, including all of the purchased participation loans on the bank’s watch list
that exceeded $250,000 and a sample of the purchased loans based on the broker

13
  Figure 2 does not include purchased participation loans for years 2002 through 2008 that may have been
sold, charged off, or paid off; this information was not available in the FDIC’s examination records.

                                                                                          14
involved in the transaction. That review determined that the bank’s risk management,
monitoring, and due diligence practices were not adequate. However, by the time the
FDIC identified and reported the significant risk and control deficiencies associated with
the purchased participation loans, Great Basin’s exposure to substantial losses had
measurably increased.

The February 2008 examination concluded that Great Basin’s:

           Management had not performed proper due diligence on the purchased
            participation loans.
           Management and Board failed to identify and properly assess the loan
            participation markets they entered and had not implemented sound lending
            controls.
           Lending staff did not have the expertise to make informed credit decisions on
            these complex, high-risk participation loans.

After the February 2008 examination, the FDIC conducted offsite monitoring of Great
Basin in December 2008 and determined that the bank’s condition had deteriorated
significantly as a result of asset quality problems centered in CRE loans and securities.
Loan administration and credit and market monitoring were inadequate, and management
had been slow to recognize and address problem areas, including those for purchased
participations. In addition, deficiencies were noted in bank management’s selection of
risk and lending practices. Further, examiners determined that, as of September 30, 2008,
nonaccrual loans had become significant, provisions of $4.6 million were required to
fund the ALLL, and the bank’s return on assets was negative 2.65 percent. As a result of
these findings and other operational deficiencies, the FDIC downgraded Great Basin’s
composite and all of the component ratings.

Similar to the previous examination, the January 2009 examination also made
recommendations associated with purchased participations, requesting bank management
to develop (1) adequate lending policies for the complex construction and insurance
company participation lending and (2) participation loan standards for pre-purchase due
diligence and ongoing monitoring. However, Great Basin had already purchased more
than $33.2 million in participation loans and had approximately $26 million still in the
bank’s loan portfolio, rendering these recommendations ineffective in mitigating the risk
associated with its lending activities.


Supervisory Response to Great Basin’s CRE Loan Concentration

Examination coverage and results associated with the bank’s CRE loans for Great Basin
follows.

      July 2003 Examination. The examination report noted a CRE concentration of
       369 percent of Tier 1 Capital as of June 30, 2003, with no material credit
       underwriting weaknesses and mitigation of risk achieved through the bank’s


                                            15
       diversification practices. Examiners made recommendations related to the bank’s
       monitoring and reporting of the CRE concentration.

      February 2005 Examination. Examiners concluded that overall underwriting
       and credit administration were satisfactory, but also included recommendations to
       improve the bank’s loan-to-value limits and concentration calculations. In
       addition, examiners did not include a concentrations page or specifically report on
       the bank’s CRE concentration in the February 2005 examination report because
       they concluded that Great Basin did not have a concentration that exceeded
       100 percent of Tier 1 Capital. Further, the Summary Analysis of Examination
       Report for the February 2005 examination indicated that the bank did not have
       any concentrations. In actuality, according to Great Basin’s UBPR as of
       December 31, 2004—the as of date for the February 2005 examination—the bank
       had a concentration in CRE of 302.55 percent of Total Capital, compared to the
       bank’s peer group of 151.36 percent of Total Capital.

      October 2006 Examination. The examination report concluded that the bank’s
       CRE concentration had increased to approximately 457 percent of Tier 1 Capital
       as of June 30, 2006, and 70 percent of the CRE was owner-occupied.

      February 2008 Examination. The joint FDIC and NFID February 2008
       examination concluded that the bank’s total funded CRE concentration
       represented 324 percent of Tier 1 Capital as of December 31, 2007. Examiners
       made several recommendations to improve asset quality, loan underwriting, and
       credit administration, including the use of interest reserves, associated with CRE
       loans.

Despite the repeated recommendations, the final examination report prior to Great
Basin’s failure in 2009 noted that significant improvement was needed in the Board’s and
management’s oversight of the CRE concentration.


Sufficiency and Timeliness of Supervisory Actions

The FDIC and NFID issued an MOU as a result of the February 2008 examination and a
C&D as a result of the January 2009 examination.

      Memorandum of Understanding. In July 2008, the FDIC issued the MOU as a
       result of the February 2008 examination. Although the MOU addressed the major
       deficiencies noted during the February 2008 examination regarding purchased
       participation loans and CRE concentration monitoring, the MOU did not contain a
       provision for qualified management, a significant factor in the poor oversight of
       the purchased participation loan portfolio.

      Cease and Desist Order. The FDIC and NFID issued a joint C&D effective
       April 15, 2009, 2 days before the bank was closed by NFID. According to FDIC
       regional office officials, various actions had to be resolved before the C&D could

                                           16
        be issued. Those actions included (1) completing the January 2009 examination,
        which did not occur until March 9, 2009; (2) the need for the FDIC to discuss the
        C&D provisions with Great Basin’s president and the bank’s attorneys; and
        (3) the Board’s agreement to stipulate to the C&D. Accordingly, the C&D was
        not ready for issuance until April 15, 2009.

The FDIC’s supervisory and enforcement actions issued in July 2008 and April 2009
addressed most of the deficiencies at the bank. However, the action taken in July 2008
did not require Great Basin to obtain qualified management, a significant factor in the
poor oversight of the purchased participation loan portfolio. Further, significant
deterioration in Great Basin’s asset quality had occurred before these actions were taken,
and the effects of poor risk management practices, purchased participation loans, and the
CRE concentration had significantly impacted the institution’s financial condition, in
general, and loan portfolio, in particular. Further, although the FDIC and NFID took
action after the February 2008 examination to address the bank’s deficiencies, bank
management continued to purchase participation loans, increasing both the bank’s risk
profile and the probability, and ultimate realization, of significant losses to the institution.


Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured nonmember banks that are not adequately capitalized. Table 5 provides
Great Basin’s capital ratios as of September 30, 2008 and December 31, 2008.

 Table 5: Great Basin’s Capital Ratios
                                                               Capital Ratios
            Capital Category                   September 30, 2008           December 31, 2008
 Tier 1 Leverage Capital                              4.32%                        2.04%
 Tier 1 Risk-Based Capital                            6.25%                        3.16%
 Total Risk-Based Capital                             7.52%                        4.45%
 Source: ROEs and UBPRs for Great Basin

We concluded that the FDIC properly implemented applicable PCA provisions of
section 38 based on the supervisory actions taken for Great Basin. On December 2, 2008,
the FDIC informed Great Basin that based on the September 30, 2008 Call Report data
the bank was considered to be Undercapitalized as shown above for PCA purposes.
Three months later, given the December 31, 2008 Call Report data, as stated above, the
bank was categorized as Significantly Undercapitalized for PCA purposes. Accordingly,
Great Basin became subject to the mandatory requirements of section 38, including
submission of a capital restoration plan and restrictions on asset growth, acquisitions,
new activities, and new branches. Further restrictions applied to the payment of

                                              17
dividends or management fees, or making any other capital distributions. Although Great
Basin was not using brokered deposits, the bank’s Undercapitalized position prohibited
the bank from accepting, renewing, or rolling over any brokered deposits unless it
obtained a waiver from the FDIC.

Great Basin’s attempts to sell the bank and/or substantially increase capital were
unsuccessful. In October 2008, the bank unsuccessfully contracted with an investment
banker to market the sale of the bank as a strategy to resolve its capital needs. In March
2009, Great Basin increased its capital by approximately $1.1 million and increased its
Tier 1 Leverage Ratio to 2.7 percent. However, the bank’s problem assets and substantial
negative earnings ($11.6 million) further impacted the bank’s ability to raise capital.

On March 18, 2009, FDIC informed Great Basin that the capital plan submitted on
December 23, 2008 was unacceptable, and needed to be revised due to unrealistic
projections for capital levels, income, and assets. Great Basin and Great Basin Financial
Corporation, the holding company for the bank, submitted a Troubled Asset Relief
Program (TARP) application in December 2008. The FDIC returned the TARP
application on March 18, 2009 stating that the viability of the bank was highly unlikely.
Additionally, the FDIC stated in the March 18, 2009 letter to Great Basin that an
acceptable capital plan for a “troubled institution” should not be reliant on the TARP
Capital Purchase Program.


Corporation Comments
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On December 2, 2009, the
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of Great Basin’s failure. DSC
also stated that Great Basin’s Board and management were expected to identify and
control the third-party risks arising from the relationships for its purchased participation
loan portfolio. With regard to the FDIC’s supervision of Great Basin, DSC stated that
examiners identified the risks associated with the purchased participations in 2008 as
weaknesses in the bank’s loan underwriting and credit administration became apparent.
DSC further stated that the FDIC has issued guidance which outlines the basic elements
for effective third-party risk management and for the performance of due diligence on
purchased loan participations.




                                            18
                                                                               Appendix 1

                     Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which provides
that if a deposit insurance fund incurs a material loss with respect to an insured
depository institution, the Inspector General of the appropriate federal banking agency
shall prepare a report to that agency reviewing the agency’s supervision of the institution.
The FDI Act requires that the report be completed within 6 months after it becomes
apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from June 2009 to December 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Great Basin’s operations from July 2003
until its failure in April 2009. Our review also entailed an evaluation of the regulatory
supervision of the institution from July 2003 to January 2009.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared jointly by the FDIC and NFID for the July
         2003, October 2006, February 2008, and January 2009 examinations and the
         FDIC February 2005 examination.

        Reviewed the following:

              Work papers of the February 2008 and January 2009 examinations.

              Documentation for offsite monitoring activities performed by the FDIC.

              Bank data and correspondence maintained at DSC’s San Francisco Regional
               Office and Phoenix Field Office.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.



                                             19
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

             Audit reports of the bank’s external auditor, McGladrey & Pullen, LLP, Las
              Vegas, Nevada.

             Work papers of the bank’s external auditor for loan review, BankVision,
              Inc., Milpitas, California.

             Pertinent DSC policies and procedures.

       Interviewed the following FDIC officials:

             DSC management in Washington, D.C. and San Francisco, California and
              FDIC examiners from the Phoenix and Los Angeles Field Offices who
              participated in Great Basin examinations.

       Met with officials from the NFID of Carson City, Nevada to discuss their
        historical perspective of the institution, its examinations, state banking laws, and
        other activities regarding the NFID’s supervision of the bank.

We performed the audit field work at the DSC office in Phoenix, Arizona.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand Great Basin management controls pertaining
to causes of failure and material loss as discussed in the body of this report.

We obtained data from various systems but determined that information system controls
were not significant to the audit objectives, and therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not relevant to the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.




                                             20
                                                                            Appendix 1

                   Objectives, Scope, and Methodology

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                           21
                                                                                     Appendix 2

                                  Glossary of Terms

       Term                                              Definition
Adversely Classified   Assets subject to criticism and/or comment in an examination report.
Assets                 Adversely classified assets are allocated on the basis of risk (lowest to
                       highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for Loan     Federally insured depository institutions must maintain an ALLL that is
and Lease Losses       adequate to absorb the estimated loan losses associated with the loan and
(ALLL)                 lease portfolio (including all binding commitments to lend). To the extent
                       not provided for in a separate liability account, the ALLL should also be
                       sufficient to absorb estimated loan losses associated with off-balance sheet
                       loan instruments such as standby letters of credit.

Bank Board             BBRs are informal commitments adopted by a financial institution’s
Resolution (BBR)       Board (often at the request of the FDIC) directing the institution’s
                       personnel to take corrective action regarding specific noted deficiencies.
                       BBRs may also be used as a tool to strengthen and monitor the institution’s
                       progress with regard to a particular component rating or activity. The FDIC
                       is not a party to these resolutions, but may review or draft the documents as
                       a means of initiating corrective action.

Call Report            Consolidated Reports of Condition and Income (also known as the Call
                       Report) are reports that are required to be filed by every national bank, state
                       member bank, and insured nonmember bank pursuant to the Federal Deposit
                       Insurance Act. These reports are used to calculate deposit insurance
                       assessments and monitor the condition, performance, and risk profile of
                       individual banks and the banking industry.
Cease and Desist       A C&D is a formal enforcement action issued by a financial institution
Order (C&D)            regulator to a bank or affiliated party to stop an unsafe or unsound practice
                       or a violation of laws and regulations. A C&D may be terminated when the
                       bank’s condition has significantly improved and the action is no longer
                       needed or the bank has materially complied with its terms.
Concentration          A concentration is a significantly large volume of economically related
                       assets that an institution has advanced or committed to a certain industry,
                       person, entity, or affiliated group. These assets may, in the aggregate,
                       present a substantial risk to the safety and soundness of the institution.
Federal National       FNMA is a congressional chartered corporation which buys mortgages on
Mortgage Association   the secondary market, pools them and sells them as mortgage-backed
(FNMA)                 securities to investors on the open market. Monthly principal and interest
                       payments are guaranteed by FNMA but not by the U.S. Government.

Loan-to-Value          Loan-to-value is the percentage or ratio that is derived at the time of loan
                       origination by dividing an extension of credit by the total value of the
                       property securing or being improved by the extension of credit plus the
                       amount of any readily marketable collateral and other acceptable collateral
                       that secures the extension of credit.




                                               22
                                                                                 Appendix 2

                                Glossary of Terms

        Term                                          Definition
Prompt Corrective    The purpose of PCA is to resolve the problems of insured depository
Action (PCA)         institutions at the least possible long-term cost to the DIF. Part 325 of the
                     FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                     325.101, et. seq., implements section 38, Prompt Corrective Action, of the
                     FDI Act, 12 United States Code section 1831o, by establishing a framework
                     for taking prompt supervisory actions against insured nonmember banks that
                     are less than adequately capitalized. The following terms are used to
                     describe capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                     (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                     Undercapitalized.

                     A PCA Directive is a formal enforcement action seeking corrective action or
                     compliance with the PCA statute with respect to an institution that falls
                     within any of the three categories of undercapitalized institutions.
Special Mention      Special Mention loans have potential weaknesses that deserve management’s
Loans                close attention. If left uncorrected, these potential weaknesses may result in
                     deterioration of the repayment prospects for the asset or in the institution's
                     credit position at some future date. Special Mention loans are not adversely
                     classified and do not expose an institution to sufficient risk to warrant
                     adverse classification.
Uniform Bank         The UBPR is an individual analysis of financial institution financial data
Performance Report   and ratios that includes extensive comparisons to peer group
(UBPR)               performance. The report is produced by the Federal Financial
                     Institutions Examination Council for the use of banking supervisors,
                     bankers, and the general public and is produced quarterly from data
                     reported in Consolidated Reports of Condition and Income submitted by
                     banks.




                                             23
                                                                  Appendix 3

                          Acronyms

ALLL     Allowance for Loan and Lease Losses

BBR      Bank Board Resolution

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity
         to Market Risk

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FIL      Financial Institution Letter

FNMA     Federal National Mortgage Association

MOU      Memorandum of Understanding

NFID     Nevada Financial Institutions Division

OIG      Office of Inspector General

PCA      Prompt Corrective Action

ROE      Report of Examination

TARP     Troubled Asset Relief Program

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                 24
                                                                                                       Appendix 4

                              Corporation Comments




FDICl
Federal Depoilt Iniurance Corporation
550 17th Street NW. Washinglo. O.C 20429-9990                             o;"sion 01 Supervis an Consume Prol8Cio


                                                                           November 30. 2009


MEMORANDUM TO:                        Stephen Beard
                                      Assistant Inspector General for Material Loss Reviews

FROM:                                 Sandra L. Thompson
                                      Director

SUBJECT:                               Draft Audit Report Entitled, Material Loss Review of        Great Basin
                                       Ban of   Nevada, Elko, Nevad
                                       (Assignent No. 2009-046)

Pursuant to Section 38(k) of  the Federal Deposit Insurance Act (FOI Act), the Federal Deposit
Insurance Corporation's Offce ofinspector General (OIG) conducted a material loss review of
Great Basin Ban of    Nevada (Great Basin) which failed on April i 7, 2009. This memorandum is
the response of the Division of  Supervision and Consumer Protection (OSC) to the OIG's Draft
Report (Report) received on November 5, 2009.

The Report concludes that Great Basin's failure was due to the Board and senior management's
ineffective risk management practices assoiated with overseeing lending activities_ Great
Basin's lending controls did not adequately assess the third-pary risk of out-of-terrtory
purchased loan paricipations, which resulted in significant loan losses. Declining earings due
to high loan loss provisions frm a deteriorating loan portfolio and losses from Federal National
Mortgage Association preferred stock contrbuted to inadequate capital levels and reduced
earings.
The FDIC and the Nevada State Baning Departent provided on-going supervision performing
five on-site examinations and off-site monitoring between 2003 and 2009, resulting in a
downgrade of   Great Basin's ratings in 2008. Joint on-site examinations noted regulatory
concerns and made recommendations to correct ineffective risk management practices,
commercial real estate concentrations, and loan undeiwting and credit adrninistration
 deficiencies.

 Great Basin significantly increased its investment in purchased loan paricipations between the
 2006 and 2008 examination. FDIC examiners identified the risks associated with these
 purchased loan paricipations in 2008, as weaesses in loan underwriting and credit
 administration became apparent. By 2008,16 percent of               Great Basin's loan portfolio consisted
 of purchased loan paricipations. Ultimately the purchased paricipation portion of                 the loan
 portfolio accounted for 85 percent of Great Basin's losses, indicating the poor risk selection of
 these loans.

 Great Basin's Board and management were expected to identify and control the third-pary risks
 arsing from such relationships to the same extent as if the activity, such as lending, were
 handled within the institution_ FDIC issued a Financial Institution Letter on Managing Third
 Party Risks in June of 2008, which outlined the basic elements for effective third-pary risk




                                                      25
                       Appendix 4

Corporation Comments




         26
